No. ______
In the

Supreme Court of the United States
__________________
JEFFREY FAIRBANKS,
v.
STATE OF INDIANA,
__________________

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
Indiana Supreme Court

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ALEXANDRA C. SISKOPOULOS
Counsel of Record
SISKOPOULOS LAW FIRM, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Petitioner

July 25, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether the judiciary violated the Ex Post Facto
Clause when it created a new evidentiary holding to
excuse the impermissible use of propensity evidence
to affirm a conviction.
2. Whether Petitioner’s Due Process rights were
violated when the evidence introduced at trial only
amounted to speculation that a crime was
committed and not proof beyond a reasonable doubt
as is required by law.
3. Whether a criminal conviction can stand when the
jury may have convicted the defendant on facts that
do not constitute a crime.
4. Whether the Indiana neglect-of-a-dependent statute
is unconstitutionally vague where even falling
asleep can be deemed leaving a child unsupervised.

ii
LIST OF DIRECTLY RELATED PROCEEDINGS
1. State of Indiana v. Jeffrey Fairbanks, Trial Court
Case No. 49G03-1508-MR-030525, State of Indiana,
Marion Superior Court (judgment of conviction
entered on June 29, 2017).
2. Jeffrey Fairbanks v. State of Indiana, Court of
Appeals Case No. 49A02-1707-CR-01675, Court of
Appeals of Indiana (decision dated August 1, 2018).
3. Jeffrey Fairbanks v. State of Indiana, Indiana
Supreme Court Case No. 18S-CR-00604, Indiana
Supreme Court (opinion dated March 27, 2019).
4. Jeffrey Fairbanks v. State of Indiana, Supreme
Court of the United States Application No. 18A1293
(extension of time to file a petition for a writ of
certiorari granted on June 18, 2019 extending time
to file to and including July 25, 2019).

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
LIST OF DIRECTLY RELATED
PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
1. Factual and Procedural History . . . . . . . . . . . 4
2. How the federal questions sought to be
reviewed were raised. . . . . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE WRIT. . . . . . . . 10
I.

The Indiana Appellate Courts Changed the
State’s Evidentiary Rules to Allow
Impermissible Propensity Evidence in Order
to Affirm an Unconstitutional Conviction. No
Defendant Should Be Held to Such
an Unlawful, Retroactive Application of the
Law. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A. The Ex Post Facto Clause Applies to
Evidentiary Rules as well as Judicial
Construction of Those Rules . . . . . . . . . . 13

iv
B. The Law in Indiana at the Time of Jeffrey
Fairbanks’ Trial Precluded the Use of
Propensity Evidence. . . . . . . . . . . . . . . . . 17
C. The Indiana Court of Appeals’ Decision
Reiterates that No Case Law Exists in
Indiana Allowing the Introduction of
Propensity Evidence Unless a Defendant
Affirmatively Raises the Issue of Lack of
Accident First . . . . . . . . . . . . . . . . . . . . . . 21
D. The Indiana Supreme Court Decision
Changed the Law that Precluded the
Introduction of this Propensity Evidence
and Retroactively Applied this New Law
to Affirm Petitioner Fairbanks’
Conviction. . . . . . . . . . . . . . . . . . . . . . . . . 23
II.

The Prosecution Merely Speculated that a
Crime Was Committed. Just as Alarming is
that this Speculation was Based Upon
Impermissible, Historically Excluded
Propensity Evidence . . . . . . . . . . . . . . . . . . . 26

III.

The Prosecution Argued to the Jury, During
Its Opening and Its Closing, that Petitioner
Fairbanks Failed to Secure Medical
Treatment for an Already Dead Child. This is
Not a Crime . . . . . . . . . . . . . . . . . . . . . . . . . . 29

IV.

The Indiana Neglect Statute, Which Had
Previously Been Found Unconstitutionally
Vague, Remains Inherently Vague Whereas
Petitioner’s Conviction May Rest Upon a
Criminal Theory that Falling Asleep with his
Child is Somehow a Criminal Act. . . . . . . . . 32

v
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
APPENDIX
Appendix A Opinion in the Indiana Supreme Court
(March 27, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Decision in the Court of Appeals of
Indiana (August 1, 2018) . . . . . . App. 19
Appendix C IC 35-46-1-4. . . . . . . . . . . . . . . . . App. 60

vi
TABLE OF AUTHORITIES
CASES
Baker v. State,
948 N.E.2d 1169 (Ind. 2011). . . . . . . . . . . . . . . . 31
Berger v. United States,
295 U.S. 78 (1935). . . . . . . . . . . . . . . . . . . . . . . . 29
Bouie v. City of Columbia,
378 U.S. 347 (1964). . . . . . . . . . . . . . . . . 13, 15, 16
Briscoe v. State,
180 Ind. App. 450, 388 N.E.2d 638 (1979) . . 26, 27
Bunting v. State,
731 N.E.2d 31 (Ind. Ct. App. 2000) . . . . . . . . . . 26
Carmell v. Texas,
529 U.S. 513 (2000). . . . . . . . . . . . . . 13, 14, 16, 25
Connally v. General Constr. Co.,
269 U.S. 385 (1926). . . . . . . . . . . . . . . . . . . . . . . 32
Darden v. Wainwright,
477 U.S. 168 (1986). . . . . . . . . . . . . . . . . . . . . . . 29
Durham v. State,
250 Ind. 555, 238 N.E.2d 9 (1968) . . . . . . . . 26, 27
Floyd v. State,
399 N.E.2d 449 (Ind. Ct. App. 1980) . . . . . . . . . 26
Grayned v. City of Rockford,
408 U.S. 104 (1972). . . . . . . . . . . . . . . . . . . . . . . 32
Greenboam v. State,
766 N.E.2d 1247 (Ind. Ct. App. 2002) . . . . . . . . 19

vii
Hicks v. State,
690 N.E.2d 215 (Ind.1997) . . . . . . . . . . . . . . 17, 18
Hurtado v. California,
110 U.S. 516 (1884). . . . . . . . . . . . . . . . . . . . 11, 25
Iqbal v. State,
805 N.E.2d 401 (Ind. Ct. App. 2004) . . . . . . . . . 19
Johnson v. United States,
__ U.S. __, 135 S. Ct. 2551 (2015) . . . . . . . . . . . 32
Kolender v. Lawson,
461 U.S. 352 (1983). . . . . . . . . . . . . . . . . . . . . . . 32
Lanzetta v. New Jersey,
306 U.S. 451 (1939). . . . . . . . . . . . . . . . . . . . . . . 15
Neville v. State,
802 N.E.2d 516 (Ind. Ct. App. 2004) . . . . . . 26, 27
Payne v. State,
854 N.E.2d 7 (Ind. Ct. App. 2006) . . . . . . . . . . . 19
Poindexter v. State,
664 N.E.2d 398 (Ind. Ct. App. 1996) . . . . . . . . . 18
Reed v. State,
180 Ind. App. 5, 387 N.E.2d 82 (1979) . . . . . . . . 28
Richardson v. United States,
526 U.S. 813 (1999). . . . . . . . . . . . . . . . . . . . . . . 29
Schad v. Arizona,
501 U.S. 624 (1991). . . . . . . . . . . . . . . . . . . . . . . 29
Thompson v. State,
15 N.E.3d 1097 (Ind. Ct. App. 2014) . . . . . . . . . 19

viii
Watson v. State,
839 N.E.2d 1291 (Ind. Ct. App. 2005) . . . . . . . . 26
Wickizer v. State,
626 N.E.2d 795 (Ind. 1993). . . . . 17, 18, 19, 23, 25
In re Winship,
397 U.S. 358 (1970). . . . . . . . . . . . . . . . . . . . . . . 26
CONSTITUTION AND STATUTES
U.S. Const. art. I, § 10, cl. 1 . . . . . . . . . . . . . . . passim
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . .

passim

U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . 2, 3
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Ind. Code Ann. § 35-46-1-4 . . . . . . . . . . . . . . . passim
RULES
Ind. R. Evid. 403. . . . . . . . . . . . . . . . . . . . . . . . . . 8, 18
Ind. R. Evid. 404(b) . . . . . . . . . . . . . . . . . . . . . passim

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Jeffrey Fairbanks respectfully petitions
for a writ of certiorari to review the decision and
judgment of the Indiana Supreme Court in this case, or
in the alternative, Petitioner Jeffrey Fairbanks
respectfully requests that this Honorable Court
summarily reverse the decision and judgment of the
Indiana Supreme Court pursuant to Supreme Court
Rule 16.
OPINIONS BELOW
The Court of Appeals of Indiana issued its opinion
on August 1, 2018 and is reproduced at App.19-59. The
opinion of the Court of Appeals of Indiana is reported
at Fairbanks v. State, 108 N.E.3d 357 (Ind. Ct. App.),
transfer granted, opinion vacated, 119 N.E.3d 91 (Ind.
2018), and opinion aff’d in part, vacated in part, 119
N.E.3d 564 (Ind. 2019). The Indiana Supreme Court
granted a Petition to Transfer and issued its decision
on March 27, 2019 and is reproduced at App.1-18. The
opinion of the Indiana Supreme Court is reported at
Fairbanks v. State, 119 N.E.3d 564 (Ind. 2019).
JURISDICTION
The Indiana Supreme Court issued its decision in
Petitioner Fairbanks’ case on March 27, 2019. On June
18, 2019, Justice Kavanaugh extended the time for
filing a Petition for Writ of Certiorari up to and
including July 25, 2019. Petitioner has made a timely
Petition for Writ of Certiorari. App.1. This Court has
jurisdiction pursuant to 28 U.S.C. § 1257.

2
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The relevant provisions of the Constitution of the
United States of America,
U.S. Const. art. I, § 10, cl. 1
No State shall enter into any Treaty, Alliance, or
Confederation; grant Letters of Marque and
Reprisal; coin Money; emit Bills of Credit; make
any Thing but gold and silver Coin a Tender in
Payment of Debts; pass any Bill of Attainder, ex
post facto Law, or Law impairing the Obligation
of Contracts, or grant any Title of Nobility.
Amendment V, which states:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury,
except in cases arising in the land or naval
forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any
person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
Amendment VI, which states:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by

3
an impartial jury of the State and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against him; to
have compulsory process for obtaining witnesses
in his favor, and to have the Assistance of
Counsel for his defence.
Amendment XIV, which states:
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and of
the state wherein they reside. No state shall
make or enforce any law which shall abridge the
privileges and immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law, nor deny to any person within its
jurisdiction the equal protection of the laws.
Ind. Code Ann. § 35-46-1-4,1 which states:
Sec. 4. (a) A person having the care of a
dependent, whether assumed voluntarily or
because of a legal obligation, who knowingly or
intentionally:

1

The full statutory text of Ind. Code Ann. § 35-46-1-4 is set forth
in App.60-63. While the statute has been amended, the relevant
portions that are being challenged remain unchanged.

4
(1) places the dependent in a situation that
endangers the dependent’s life or health;….
commits neglect of a dependent, a Level 6 felony.
(b) However, the offense is:
….
(3) a Level 1 felony if it is committed under
subsection (a)(1), (a)(2), or (a)(3) by a person at
least eighteen (18) years of age and results in
the death or catastrophic injury of a dependent
who is less than fourteen (14) years of age or in
the death or catastrophic injury of a dependent
of any age who has a mental or physical
disability.
STATEMENT OF THE CASE
1. Factual and Procedural History
The high-profile case of Jeffrey Fairbanks was
covered extensively by the media outlets in Indiana.
Petitioner Fairbanks has maintained throughout the
course of his trial that on the fateful date of May 28,
2015, he woke up from his sleep to find his threemonth-old baby dead. He has always maintained that
he does not know what happened to cause his child’s
death, but that he panicked and drove around
aimlessly for hours with his lifeless baby in the car.
When asked in a television interview what may have
happened, Petitioner Fairbanks simply concluded - I
don’t know. After extensive media coverage of the case
in which Petitioner Fairbanks was vilified by the
media, Petitioner Fairbanks was charged with both
murder and neglect of a dependent resulting in death.

5
Prior to the day his daughter died, on the evening of
May 27, 2015, Jeffrey Fairbanks and his mate, Yolanda
Rivera, went to Walmart to get food for a family dinner.
Tr. Vol. III, pp. 68-69. On that evening, Yolanda’s
daughters, A.G. and E.M., were babysitting their threemonth-old sister, Janna. Tr. Vol. III, pp. 68-69. After
dinner, the family went to bed and Janna, as usual,
slept next to her mother, Yolanda, on the bed. Tr. Vol.
III, p. 41. Early the next morning, Yolanda went to
work, but did notice that Janna never woke up to be fed
and slept through her morning diaper change. Tr. Vol.
III, p. 44.
Mr. Fairbanks remained home on May 28, 2015 to
attend an appointment that was ultimately cancelled.
Tr. Vol. III, p. 161. Thereafter, he told A.G. and E.M.
that his appointment was cancelled, and he remained
home. Tr. Vol. III, p. 161. Mr. Fairbanks explained that
he changed the child’s diaper, fed the child, and
eventually went back to sleep. Tr. Vol. IV, p. 178,
State’s Exhibit 26. Later that day, Mr. Fairbanks found
his child dead and engaged in a futile attempt to
administer CPR. State’s Exhibit 26. Mr. Fairbanks
panicked, left the family home, and drove around with
his dead daughter for hours, and finally disposed of the
body in a dumpster by his family’s old apartment
complex. Eventually, Jeffrey Fairbanks returned to the
family home around 11:00 p.m. and told them that
Janna had died. Tr. Vol. IV, p. 172.
Upon being questioned by the police, Mr. Fairbanks
simply explained he did not know what caused his
daughter’s death. State’s Exhibit 26. Also, in their
initial interviews, Yolanda’s daughters (A.G. and E.M.)

6
did not implicate Mr. Fairbanks in any wrongdoing. Tr.
Vol. III, pp. 148-49.
Ultimately, Jeffrey Fairbanks was charged with
murder and neglect of a dependent resulting in death.
Prior to trial, the prosecution filed a notice of intent to
introduce 404(b) evidence – namely testimony from
A.G. and E.M. that they had seen Jeffrey Fairbanks
place a pillow on Janna on a few occasions. Tr. Vol. II,
pp. 4, 29. Defense counsel countered with a motion in
limine to preclude such evidence arguing that this was
a clear violation of 404(b) evidence and this was an
incredible claim by the girls whereas their initial
interviews never made such a claim and Yolanda
explicitly told police she had never seen a pillow placed
on the child. Tr. Vol. II, pp. 4, 35-38. The trial court
denied the motion and allowed the introduction of the
404(b) “pillow evidence.” Tr. Vol. III, p. 3.
During the trial, the prosecution’s opening
statement set forth the neglect charge was based on the
failure of Mr. Fairbanks to seek medical help. Tr. Vol.
III, p. 16. Throughout the trial, the State speculated
that Mr. Fairbanks smothered his child and made
highly prejudicial claims that Mr. Fairbanks admitted
to this in a video. Tr. Vol. V, pp. 27, 33. The video
speaks for itself and clearly does not support this
assertion. State’s Exhibit 26. At trial, the 404(b) “pillow
evidence” was belied by the fact that no DNA evidence
was found on the pillow itself. Tr. Vol. IV, p. 244. At
the close of the trial, defense counsel moved for a
judgment on the evidence based on sufficiency of the
evidence and prosecutorial misconduct. Tr. Vol. V, pp.
5-7. The trial court denied the motion. Tr. Vol. V, p. 8.

7
The jury acquitted Mr. Fairbanks on the murder
charge but found him guilty on the neglect charge. The
trial court sentenced Mr. Fairbanks to thirty (30) years
on the neglect charge.
On direct appeal to the Indiana Court of Appeals,
Mr. Fairbanks argued that: (1) the trial court erred in
allowing 404(b) evidence of prior bad acts for the
impermissible use of creating the “forbidden inference”;
(2) Mr. Fairbanks’ conviction rests solely on speculation
as to what occurred behind closed doors and as to the
health of the child warranting a reversal based on
sufficiency of the evidence; (3) juror misconduct
resulted in substantial prejudice to Mr. Fairbanks
warranting a reversal; (4) the prosecution committed
multiple acts of misconduct that placed Mr. Fairbanks
in peril and prevented a fair trial resulting in
fundamental error; and (5) Ind. Code Ann. § 35-46-1-4
is unconstitutionally void for vagueness. App.19-59. On
August 1, 2018, the Court of Appeals affirmed Mr.
Fairbanks’ conviction. App.19-59.
Petitioner Fairbanks then sought further appellate
review by the Indiana Supreme Court and filed a
Petition to Transfer arguing that transfer should be
granted because the Court of Appeals’ decision
conflicted with precedent set forth by the Indiana
Supreme Court. The Indiana Supreme Court granted
the Petition to Transfer. Indiana’s highest court
affirmed in part and vacated in part the decision of the
Indiana Court of Appeals. App.1-18. In rendering its
decision, the Indiana Supreme Court shockingly
changed existing evidentiary law in Indiana in
order to affirm the conviction of Petitioner and declined

8
to address the additional issues raised in the Petition
to Transfer. App.1-18.
2. How the federal questions sought to be
reviewed were raised.
On direct appeal to the Court of Appeals, Petitioner
Fairbanks argued that the trial court impermissibly
allowed the State to introduce propensity evidence over
his objections arguing that it violated Indiana Rules of
Evidence 404(b) and 403. App.34-36. Specifically,
Petitioner Fairbanks argued that the law in Indiana
precludes the use of propensity evidence to prove lack
of accident and is only available to the prosecution
after a defendant affirmatively advances a contrary
claim of accident. App.36. The Court of Appeals agreed
with Petitioner Fairbanks’ position that the precedent
established in Indiana required that a defendant must
first make an affirmative claim of accident before
propensity evidence is admissible. App.40. Despite
reciting the correct law, Petitioner maintained the
Court of Appeals applied the law incorrectly as to him
and sought further appellate review in the Indiana
Supreme Court. Fairbanks’ Petition to Transfer to
Indiana Supreme Court, pp. 8-9. The Indiana Supreme
Court granted further review, but in rendering its
opinion, Indiana’s highest court changed the law
regarding 404(b) evidence and applied it
retroactively in order to affirm Petitioner’s
conviction. App.1-18. Petitioner is arguing that this
change of law at the highest appellate court of the
State of Indiana is a violation of the Ex Post Facto
Clause and precedent set forth by this Court.

9
On direct appeal to the Court of Appeals, Petitioner
Fairbanks argued that his Due Process rights were
violated because the State presented insufficient
evidence to sustain the conviction as the entire
conviction is based upon a speculative version of
events. App.44-45 at fn. 8. The Court of Appeals did
not address the sufficiency of the evidence issue relying
on its analysis on the admissibility of the propensity
evidence. App.44-45 at fn. 8. Petitioner sought further
appellate review on this issue from the Indiana
Supreme Court, but the Court declined to entertain the
issue. App.9 at fn.1.
On direct appeal to the Court of Appeals, Petitioner
Fairbanks argued that the prosecution violated his Due
Process rights by engaging in misconduct during the
trial by confusing the jury as to its theory on the
neglect of a dependent charge. App.45-48. Petitioner
Fairbanks argued that the State presented to the jury
two entirely different theories on the neglect charge.
One theory was based upon the same pillow testimony
that was submitted for the murder charge. The
alternate theory was that Petitioner Fairbanks failed
to seek medical help for a dead child. App.46-48. The
opinion of the Court of Appeals stated that there was
no rule in Indiana which prevented the State from
arguing alternate theories to find the defendant guilty.
App.48. Petitioner Fairbanks sought further appellate
review on this issue from the Indiana Supreme Court
arguing that the Court of Appeals’ opinion highlights
the fact that the jury was presented an alternate legal
theory of failing to seek medical help for a dead child
which the State acknowledged is not a crime.
Petitioner Fairbanks argued that the jury may have

10
convicted him on facts which do not constitute a crime
warranting a reversal. Fairbanks’ Petition to Transfer
to Indiana Supreme Court, p. 9. The Indiana Supreme
Court declined to address the issue. App.9 at fn.1.
On direct appeal to the Court of Appeals of Indiana,
Petitioner Fairbanks argued that the statute, Ind. Code
Ann. § 35-46-1-4 which states a “person having the care
of a dependent, whether assumed voluntarily or
because of a legal obligation, who knowingly or
intentionally: (1) places the dependent in a situation
that endangers the dependent’s life or health” is
unconstitutionally vague. App.52-53. The Court of
Appeals found that the statute was not
unconstitutionally vague. App. 52-54. Petitioner
Fairbanks sought further appellate review from the
Indiana Supreme Court, but the Court declined to
address the issue. Fairbanks’ Petition to Transfer to
Indiana Supreme Court, p. 13; App.9 at fn.1.
REASONS FOR GRANTING THE WRIT
The Indiana Supreme Court’s decision is the ideal
vehicle to address whether the judiciary violates the Ex
Post Facto Clause of the Constitution when it creates
a new evidentiary holding to excuse the impermissible
use of propensity evidence in order to affirm a
conviction. Petitioner Fairbanks hereby argues that the
opinion of the Indiana Supreme Court violates the
precedent set forth by this Court as this Court has
explicitly held that the Ex Post Facto Clause does apply
to evidentiary rules and has also held that the judiciary
can violate the Ex Post Facto Clause by rendering
decisions that run afoul of the rule.

11
This case also sets forth that the Indiana courts
violated Petitioner Fairbanks’ Due Process rights
because his conviction rests on insufficient evidence
and is simply speculation. Additionally, Petitioner’s
Due Process rights were violated because the jury may
have convicted the Petitioner based on facts that do not
amount to a crime. Finally, the Petitioner argues that
the statute under which he was prosecuted is void for
vagueness.
I.

The Indiana Appellate Courts Changed the
State’s Evidentiary Rules to Allow
Impermissible Propensity Evidence in
Order to Affirm an Unconstitutional
Conviction. No Defendant Should Be Held
to Such an Unlawful, Retroactive
Application of the Law.

In the high-profile case of Jeffrey Fairbanks,
Petitioner Fairbanks was convicted in the matter of
public opinion long before he was ever arrested. In
what has become a continuing trend in the past few
years, media headlines vilifying an individual become
an impetus to bring criminal charges. As the media
created headlines demonizing Petitioner Fairbanks’
erratic behavior at the loss of his child, pressure
mounted to bring charges against Petitioner Fairbanks.
It is these high-profile cases where the law must be
followed so that individuals are afforded a fair trial.
This Court has stated “[l]aw is something more than
mere will exerted as an act of power. It must not be a
special rule for a particular person or a particular
case.” Hurtado v. California, 110 U.S. 516, 535-36
(1884). In Petitioner Fairbanks’ case the law did

12
become a special rule for a particular person and a
particular case.
This case also highlights the expanded use of
impermissible propensity evidence to fill gaping holes
in the prosecution’s case in chief. The impermissible
use of this type of damning testimony lightens the
prosecution’s historical burden of proof. This type of
impermissible propensity evidence is increasingly used
by the prosecution to invite the jury to convict based
upon a speculative theory of events created by the
introduction of historically excluded evidence.
Prosecutors, as they did in Petitioner Fairbanks’ case,
are now asking the jury to draw the impermissible
conclusion – convict because defendant did something
in the past, he must be guilty now. Indeed, the
prosecution in its closing argument decried “what he
did before is important, the history of putting the
pillow on her face, corroborated by both A.G. and E.M.
They both saw it happen more than once, and they both
told you that it happened when she was fussy and
when she was crying. That’s the only time that it
happened, and it happened when Jeff was the only one
home.” Tr. Vol. V, p. 78. This outburst epitomizes how
propensity evidence has become the illicit accelerant to
secure a criminal conviction in today’s era.
The law in Indiana regarding this bedrock
evidentiary rule was ignored and then manipulated to
pursue and then obtain a conviction. Specifically, the
Indiana appellate courts issued decisions which altered
existing law so Mr. Fairbanks’ objections to the
impermissible use of propensity evidence would not
result in a reversal of his conviction. This Honorable

13
Court made clear in Carmell v. Texas, 529 U.S. 513
(2000), that altering the legal rules of evidence in order
to convict a defendant violates the Ex Post Facto
Clause of the Constitution. Id. This Honorable Court
has also made clear in Bouie v. City of Columbia, 378
U.S. 347 (1964), that a violation of the Ex Post Facto
Clause does not solely apply to legislative actions, but
also extends to judicial expansion of existing law. Id.
A. The Ex Post Facto Clause Applies to
Evidentiary Rules as well as Judicial
Construction of Those Rules.
This case presents the perfect vehicle for this
Honorable Court to address whether the judiciary
violates the Ex Post Facto Clause of the Constitution
when a State’s highest court renders a decision that
modifies the existing law as to evidentiary rules in
order to affirm a conviction. Additionally, this Court
has not definitely decided when judicial decisions arise
to an alteration of legal rules of evidence resulting in a
violation of the Ex Post Facto Clause.
As to evidentiary rules, in Carmell v. Texas, this
Court held that the Ex Post Facto Clause applied to
“[e]very law that alters the legal rules of evidence, and
receives less, or different, testimony, than the law
required at the time of the commission of the offence,
in order to convict the offender.” Carmell, 529 U.S. at
522. The courts in Indiana clearly altered the law with
regard to the admissibility of propensity evidence in
order to provide the prosecution with an impermissible
evidentiary avenue to present to the jury. Ultimately,
the Indiana Supreme Court upended existing precedent
which completely precluded the State’s introduction of

14
propensity evidence to prove lack of accident unless
this issue was first raised by the defendant. At the
highest appellate level, the Indiana Supreme Court
carved out a new exception to the existing rule
proclaiming that the State can introduce this
previously impermissible evidence if they had “reliable
assurance” that a defendant may raise the issue of
accident. This new “reliable assurance” exception did
not exist in prior case law, but was in reality a new
exception carved out to excuse the impermissible
introduction of propensity evidence. Prior to this
holding, the prosecution and the Court of Appeals
readily acknowledged that Indiana did not have a
single case “where the State admitted evidence under
Evidence Rule 404(b) that the act was not a mistake or
accident when the defendant had not made such a
claim.” App.40.
This Court has set forth that it is a violation of the
law when “the government refuses, after the fact, to
play by its own rules, altering them in a way that is
advantageous only to the State, to facilitate an easier
conviction.” Carmell, 529 U.S. at 533. “There is
plainly a fundamental fairness interest, even apart
from any claim of reliance or notice, in having the
government abide by the rules of law it establishes to
govern the circumstances under which it can deprive a
person of his or her liberty or life.” Id. “The Framers,
quite clearly, viewed such maneuvers as grossly unfair,
and adopted the Ex Post Facto Clause accordingly.” Id.
at 534.
Just as the legislation of the State cannot violate
the Ex Post Facto Clause, this Court has held that

15
State Supreme Courts are prohibited from violating the
Ex Post Facto Clause through judicial construction of
law. This Court has stated “[i]f a state legislature is
barred by the Ex Post Facto Clause from passing such
a law, it must follow that a State Supreme Court is
barred by the Due Process Clause from achieving
precisely the same result by judicial construction.”
Bouie, 378 U.S. at 353–54. This is because “‘[n]o one
may be required at peril of life, liberty or property to
speculate as to the meaning of penal statutes. All are
entitled to be informed as to what the State commands
or forbids.’” Id. at 351 (quoting Lanzetta v. New Jersey,
306 U.S. 451, 453 (1939)).
This Court reasoned that just as vague statutes
violate the Fourteenth Amendment, “the violation is
that much greater when, because the uncertainty as to
the statute’s meaning is itself not revealed until the
court’s decision, a person is not even afforded an
opportunity to engage in such speculation before
committing the act in question.” Bouie, 378 U.S. at 352,
“There can be no doubt that a deprivation of the right
of fair warning can result not only from vague
statutory language but also from an unforeseeable and
retroactive judicial expansion of narrow and precise
statutory language.” Id. “Indeed, an unforeseeable
judicial enlargement of a criminal statute, applied
retroactively, operates precisely like an ex post facto
law, such as Art. I, s 10, of the Constitution forbids.”
Id. at 353.
A judicial Ex Post Facto violation can occur when “a
state court overrules a consistent line of procedural
decisions with the retroactive effect of denying a

16
litigant a hearing in a pending case” depriving the
litigant of his or her due process rights. Id. at 354.
This also occurs when “a similarly unforeseeable statecourt construction of a criminal statute is applied
retroactively to subject a person to criminal liability for
past conduct.” Id. at 354-55. The Court made clear with
regard to the Ex Post Facto Clause, ‘[t]he violation is
none the less clear when that result is accomplished by
the state judiciary in the course of construing an
otherwise valid… state statute.” Id. at 355.
“The Due Process Clause compels the same result
here, where the State has sought to achieve precisely
the same effect by judicial construction of the statute.”
Id. at 362. “While such a construction is of course valid
for the future, it may not be applied retroactively… to
impose criminal penalties for conduct committed at a
time when it was not fairly stated to be criminal.” Id.
While there is no prohibition to the State courts in
Indiana from changing their law and applying the law
prospectively, the Ex Post Facto Clause expressly
prohibits the Indiana courts from applying this new
law retroactively to sustain the conviction of Petitioner
Fairbanks. Carmell, 529 U.S. at 552–53. This Court
noted “‘[i]f the laws in being do not punish an offender,
let him go unpunished; let the legislature, admonished
of the defect of the laws, provide against the
commission of future crimes of the same sort.” Id. “The
escape of one delinquent can never produce so much
harm to the community, as may arise from the
infraction of a rule, upon which the purity of public
justice, and the existence of civil liberty, essentially
depend.’” Id. at 553.

17
B. The Law in Indiana at the Time of
Jeffrey Fairbanks’ Trial Precluded the
Use of Propensity Evidence.
On direct appeal, Petitioner Fairbanks argued that
the trial court’s impermissible admission of 404(b)
evidence warranted a reversal under existing Indiana
law. Indiana law steadfastly holds that admission of
“[e]vidence of other crimes, wrongs, or acts is not
admissible to prove the character of a person in order
to show action in conformity therewith.” Ind. Evidence
Rule 404(b). The courts have explicitly stated that this
rule excluding propensity evidence is “designed to
prevent the jury from assessing a defendant’s present
guilt on the basis of his past propensities, the so-called
‘forbidden inference.’” Hicks v. State, 690 N.E.2d 215,
218-19 (Ind.1997). Additionally, “the use of prior
conduct evidence for this purpose introduces the
substantial risk of conviction based predominantly on
bad character.” Wickizer v. State, 626 N.E.2d 795, 797
(Ind. 1993)
The law in Indiana clearly holds that when the
prosecution seeks to admit 404(b) evidence, the trial
court must engage in a two-part inquiry. The court
must first determine whether “the evidence of other
crimes, wrongs, or acts is relevant to a matter at issue
other than the defendant’s propensity to commit the
charged act.” Hicks, 690 N.E.2d at 221. As an exception
to the rule, prior bad acts “may, however, be admissible
for other purposes, such as proof of motive, intent,
preparation, plan, knowledge, identity, or absence of
mistake or accident.” Evid. R. 404(b). If the evidence is
offered only to produce the “forbidden inference,” that

18
is, that the defendant had engaged in other, uncharged
misconduct and that the charged conduct was in
conformity with the uncharged misconduct, then the
evidence is inadmissible. Hicks, 690 N.E.2d at 219; see
also Poindexter v. State, 664 N.E.2d 398, 400 (Ind. Ct.
App. 1996). Thereafter, the second part of the two-part
inquiry involves the trial court “balanc[ing] the
probative value of the evidence against its prejudicial
effect pursuant to Rule 403.” Hicks, 690 N.E.2d at 221.
At the time of Petitioner Fairbanks’ trial, Indiana
law had limited the intent exception and clearly set
forth that prior bad acts are not permitted to prove
intent in Indiana, until and unless the defendant
places his intent at issue. In the seminal holding of
Wickizer, the Indiana Supreme Court held “Indiana is
best served by a narrow construction of the intent
exception in Evid.R. 404(b)” and stated that this
narrow construction “does not authorize the general
use of prior conduct evidence as proof of the general or
specific intent element in criminal offenses.” Wickizer,
626 N.E.2d at 799. The Indiana Supreme Court
reasoned that “[t]o allow the introduction of prior
conduct evidence upon this basis would be to permit
the intent exception to routinely overcome the rule’s
otherwise emphatic prohibition against the
admissibility of other crimes, wrongs, or acts to prove
the character of a person in order to show action in
conformity therewith.” Id. Thus, the “admission of prior
bad acts would frequently produce the ‘forbidden
inference’ cautioned against.” Id.
The only time this evidence becomes admissible as
to intent is when the “defendant goes beyond merely

19
denying the charged culpability and affirmatively
presents a claim of particular contrary intent.” Id.;
Greenboam v. State, 766 N.E.2d 1247 (Ind. Ct. App.
2002)(holding that the conviction should be reversed
because the court abused its discretion when it allowed
evidence of the prior bad act of previous molestation
where defendant never put his intent at issue);
Thompson v. State, 15 N.E.3d 1097 (Ind. Ct. App.
2014)(holding the court abused its discretion in
allowing testimony regarding prior bad acts when the
defendant never placed his intent at issue).
Further, the admission of prior bad acts to prove
mistake of fact or accident is impermissible when the
defendant does not put mistake of fact or accident at
issue. Payne v. State, 854 N.E.2d 7 (Ind. Ct. App.
2006)(holding that the admission of prior bad acts to
prove mistake of fact or accident is impermissible when
the defendant does not put mistake of fact or accident
at issue); cf. Iqbal v. State, 805 N.E.2d 401 (Ind. Ct.
App. 2004)(holding that prior bad acts were admissible
to prove mistake fact or accident only because the
defendant raised those issues as part of his defense.)
Despite this clear and unambiguous rule, the trial
court allowed the prosecution to introduce 404(b)
evidence that Mr. Fairbanks on prior occasions had put
a pillow on his daughter. App.28. Indeed, the
prosecution’s entire case centered around evidence of
prior bad acts because, as the prosecution
acknowledged, they needed the evidence to prove their
case. Tr. Vol. II, p. 31. The State’s acknowledgement
is an unequivocal admission that the evidence was
being proffered to prove “conformity therewith” and to

20
create the “forbidden inference” in direct contravention
of this rule of law. Tr. Vol. II, p. 31.
Despite this explicit admission that the evidence
was going to be proffered for the impermissible use of
a creating a “forbidden inference,” the prosecution
attempted to argue that the evidence of prior bad acts
fell into the exception to the rule that states that prior
bad acts “may, however, be admissible for other
purposes, such as proof of motive, intent, preparation,
plan, knowledge, identity, or absence of mistake or
accident.” Evid. R. 404(b). Specifically, in an attempt
to argue that they had a permissible use despite their
previous admission, the prosecution stated that they
intended to use the evidence to prove intent and lack of
mistake or accident. The use of these exceptions was
not permitted under well-established Indiana law. In
the instant action, Mr. Fairbanks merely denied the
charges. Tr. Vol. II, p. 42. Mr. Fairbanks did not
present any claims of contrary intent or mistake of fact
or accident. Pursuant to overwhelming law, the
introduction of this evidence was impermissible.
Given the fact that Mr. Fairbanks never presented
any claims of contrary intent or mistake of fact or
accident and the explicit admission by the prosecution
that the evidence was going to be used to create a
forbidden inference, the first part of the inquiry showed
that no permissible exceptions to the rule applied and
the prosecution was attempting to create a forbidden
inference to prove its case. The inquiry should have
stopped there, and the trial court should have
precluded the use of this 404(b) evidence.

21
C. The Indiana Court of Appeals’ Decision
Reiterates that No Case Law Exists in
Indiana Allowing the Introduction of
Propensity Evidence Unless a
Defendant Affirmatively Raises the
Issue of Lack of Accident First.
The Court of Appeals agreed with Petitioner
Fairbanks’ statement of the law about when and how
propensity evidence should be admitted. Although the
Indiana Court of Appeals stated the law correctly, the
Court of Appeals, in order to affirm the conviction,
applied the law incorrectly.
The Indiana Court of Appeals agreed with
Petitioner Fairbanks that “similar to intent, defendants
must affirmatively claim mistake or accident before the
State can admit evidence pursuant to Evidence Rule
404(b) that the act was not a mistake or accident.”
App.40. The Court of Appeals explained that the
standard for determining when a claim of contrary
intent is raised is as follows: “An accused can be said to
have raised a claim of particular contrary intent
through pretrial statements to police, opening
statement, cross-examination of the State’s witnesses,
or evidence in the defendant’s case in chief.” App.37
(noting that “[a]bsence of mistake and lack of accident
have been a more specialized application of the broader
category of intent.”)
The Court of Appeals noted that on appeal
“Fairbanks highlights that he has consistently
maintained that he doesn’t know how she died.”
App.36. The Court further stated that “[a]s for whether
Fairbanks affirmatively claimed accident during his

22
pretrial statements to police, opening statement, crossexamination of the State’s witnesses, or evidence in the
defendant’s case in chief, we note that Fairbanks got
very close to the line when he said he didn’t know what
happened to Janna and that he didn’t do anything
wrong.” App.40.
The Court of Appeals also made clear that the
State’s position on appeal was that “[c]ontrary to
[Fairbanks’s] argument, a defendant does not need to
affirmatively advance a contrary claim of accident prior
to the State’s introduction of prior bad act evidence.”
App.36. The Indiana Court of Appeals’ decision noted
that “the State conceded at oral argument that it had
not found one case where the State admitted evidence
under Evidence Rule 404(b) that the act was not a
mistake or accident when the defendant had not made
such a claim.” App.40.
Despite stating the correct law, the Court of
Appeals applied the law incorrectly finding that the
evidence was admissible because after the evidence had
been admitted in the prosecution’s case in chief, the
defense addressed the evidence and arguments
regarding this propensity evidence raised by the
prosecution in its case in chief. Of course, defense
counsel had a duty to cross examine the witnesses who
brought in the erroneous propensity evidence. Due to
the blatant improper application of the law, Mr.
Fairbanks sought further appellate review to the
Indiana Supreme Court, which was granted.

23
D. The Indiana Supreme Court Decision
Changed the Law that Precluded the
Introduction of this Propensity
Evidence and Retroactively Applied this
New Law to Affirm Petitioner
Fairbanks’ Conviction.
The Indiana Supreme Court held that Wickizer
applied in Petitioner Fairbanks’ case, but then grossly
changed the holding in Wickizer and created new law.
Wickizer clearly states that it is the State’s burden to
show that the defendant has raised a claim of contrary
intent requiring the State’s proffer of evidence be
accompanied by a reliable assurance that the State
will connect it to evidence that the defendant
affirmatively contested intent. Id. at 800 (stating “We
also note that the State’s proffer of prior conduct
testimony was not accompanied by any reliable
assurance that the State would subsequently connect
it up with other evidence demonstrating that the
defendant was affirmatively contesting the issue of
intent.”)
The Wickizer holding does not permit the wholesale
use of propensity evidence “when the State has ‘reliable
assurance’ that an accident defense will be raised.”
App.8-9. This new “reliable assurance” standard is a
new law created by the Indiana Supreme Court which
is at odds with existing Indiana precedent in violation
of the Ex Post Facto Clause.
In fact, in Mr. Fairbank’s case, the State’s proffer
was not accompanied by any “reliable assurance” as is
required by Wickizer. In its proffer, the State simply
stated “And because in this case, in our particular case,

24
the defendant has stated that he didn’t know how the
baby died, the baby died, he got up, he put her in his
car, he drove around, and he eventually put it in a
dumpster, so that negates -- that states that it’s an
accident. And he’s -- I mean, he’s implying through his
actions that it was an accident. He didn’t -- you know,
he denied killing the child in his statement.” Tr. Vol.
II, p. 30.
In its closing, the State acknowledged that Mr.
Fairbanks never asserted accident and never
raised death by natural causes. The State readily
stated at closing that “he never definitely said yeah
this is SIDS. Yes, I rolled over on her. The detectives
asked him and then even in the media interview asked
him if there was any truth to the idea of a rollover and
he did – he said no.” Tr. Vol. V, p. 83. As such,
accident and natural causes were not matters actually
at issue in the case, but simply a pretext for creating
the forbidden inference. The State clearly did not offer
any proffer of “reliable assurance” as even its Brief in
Opposition to the Court of Appeals solely argued that
“[c]ontrary to Defendant’s argument, a defendant does
not need to affirmatively advance a contrary claim of
accident prior to the State’s introduction of prior bad
act evidence.” State’s Brief to Court of Appeals, p. 21.
In fact, the Court of Appeals’ decision noted that the
State’s position was that it was not required to show
contrary intent before introduction of this propensity
evidence. App.36.
The law prohibiting the use of propensity evidence
was to prevent the prosecution from obtaining a
conviction based upon the forbidden inference.

25
Wickizer, 626 N.E.2d at 797. By changing the rules
regarding the admission of this evidence at the last
appellate level, the Indiana Supreme Court clearly
“altered the legal rules of evidence, and received less,
or different, testimony that the law required at the
time of the commission of the offence, in order to
convict the offender.” Carmell, 529 U.S. at 522.
By changing the law, the courts in Indiana violated
the Ex Post Facto Clause by allowing in different
testimony than what was permitted under established
precedent. Petitioner was not afforded a fair trial and
his Due Process rights were violated. The rules of
procedure set forth a system for a fair trial. Objections
are lodged so that errors made by the trial court can be
reviewed and corrected on appeal. Changing existing
law at the appellate level in order to sustain the
conviction upends the entire legal system. A
defendant’s counsel cannot have a legal strategy when
the law and rules of evidence can be changed after the
trial in order to have the conviction “stick.” If these
types of decisions are allowed to stand, then the faith
in the legal system is forever destroyed as there is
simply no point to appellate courts or appellate review.
The law prohibits making a “special rule for a
particular person or a particular case.” Hurtado, 110
U.S. at 535-36.

26
II.

The Prosecution Merely Speculated that a
Crime Was Committed. Just as Alarming is
that this Speculation was Based Upon
Impermissible, Historically Excluded
Propensity Evidence.

Petitioner Fairbanks’ conviction violates the Due
Process Clause as the conviction rests solely on
speculation warranting a reversal based upon
sufficiency of the evidence. Indeed, the Due Process
Clause of the Fourteenth Amendment requires that a
defendant be convicted by proof of guilt beyond a
reasonable doubt.” In re Winship, 397 U.S. 358, 364
(1970). The law in Indiana makes clear that the Due
Process Clause requires “in every case where that issue
is raised on appeal we have an affirmative duty to
make certain that the proof at trial was, in fact,
sufficient to support the verdict beyond a reasonable
doubt.” Bunting v. State, 731 N.E.2d 31, 35 (Ind. Ct.
App. 2000). The law holds that “doubt may arise from
the evidence, the lack of evidence, or a conflict in the
evidence.” Id.
The case law in Indiana clearly provided the
requirement of proof beyond a reasonable doubt
dictates that “[a] conviction cannot be based on
speculation.” Watson v. State, 839 N.E.2d 1291, 1294
(Ind. Ct. App. 2005); Neville v. State, 802 N.E.2d 516,
518 (Ind. Ct. App. 2004); Bunting v. State, 731 N.E.2d
31, 35 (Ind. Ct. App. 2000)(stating “the mere suspicion
or possibility of guilt is not sufficient to sustain a
conviction”); Floyd v. State, 399 N.E.2d 449, 451 (Ind.
Ct. App. 1980); Briscoe v. State, 180 Ind. App. 450, 462,
388 N.E.2d 638, 645 (1979); Durham v. State, 250 Ind.

27
555, 562, 238 N.E.2d 9, 13 (1968)(holding “[a] verdict
based merely upon suspicion, opportunity, probability,
conjecture, speculation or unreasonable inferences of
guilty gleaned from the vague evidence…cannot be
upheld and must be reversed”).
The Indiana courts have also established that due
process dictates that it is impermissible to make
inferences from evidence that is speculative,
specifically stating that “[a]n inference cannot be based
on evidence which is uncertain or speculative or which
raises merely a conjecture or possibility.” Neville v.
State, 802 N.E.2d 516, 518 (Ind. Ct. App. 2004);
Durham v. State, 250 Ind. 555, 562, 238 N.E.2d 9, 13
(1968). The law holds that “the proof of a mere
opportunity to commit the crime, without more, is not
sufficient to sustain a conviction.” Briscoe v. State, 180
Ind. App. 450, 462, 388 N.E.2d 638, 645 (1979);
Durham v. State, 250 Ind. 555, 562, 238 N.E.2d 9, 13
(1968)(stating “the proof of a mere opportunity to
commit the crime, without more, is not sufficient to
sustain a conviction”).
In this case, the State’s evidence consisted solely of
speculation that Mr. Fairbanks had the opportunity to
commit a crime and the jury was then asked to make
impermissible inferences based upon that speculation.
The State requested that the jury speculate as to what
occurred behind closed doors simply because the child
died while Mr. Fairbanks was asleep in the room with
the child. The jury was then impermissibly asked to
make the forbidden inference that Mr. Fairbanks used
a pillow to smother his child based upon the
inconsistent and impeached testimony of two children

28
whose stories kept changing regarding this purported
pillow evidence. Indeed, the State admitted that its
entire case rested upon impermissible 404(b) evidence
to speculate that Mr. Fairbanks used a pillow to
smother his child.
The State, throughout its case, made the claim that
the baby was healthy when she died. No proof was
submitted but rather speculative testimony from a
young, relatively inexperienced pediatrician who had
not examined the child for three months. Tr. Vol. III,
pp. 228-29. The only testimony elicited as to the health
of the child was from the child’s pediatrician who
examined the child for fifteen minutes ten days after
the child was born. This pediatrician simply adduced
from the notes that the child was healthy at one month
old, despite the fact that the notes indicated that the
child had subconjunctival hemorrhages at one month
old and an admission that the doctors did no additional
testing on the child at that time. Tr. Vol. III, pp. 232,
240-41. Indeed, in Reed v. State, 180 Ind. App. 5, 9–11,
387 N.E.2d 82, 85 (1979), the court held that this type
of testimony from a doctor that consisted of
hypothetical questioning of a doctor was insufficient to
sustain a conviction.
Simply put, the State’s case was based on conjecture
and speculation which is a violation of Petitioner
Fairbanks’ Due Process rights.

29
III.

The Prosecution Argued to the Jury,
During Its Opening and Its Closing, that
Petitioner Fairbanks Failed to Secure
Medical Treatment for an Already Dead
Child. This is Not a Crime.

This Honorable Court held “while [a prosecutor]
may strike hard blows, he is not at liberty to strike foul
ones. It is as much his duty to refrain from improper
methods calculated to produce a wrongful conviction as
it is to use every legitimate means to bring about a just
one.” Berger v. United States, 295 U.S. 78, 88 (1935).
The prosecutor’s misconduct “so infected the trial with
unfairness as to make the resulting conviction a denial
of due process.” Darden v. Wainwright, 477 U.S. 168,
181 (1986).
It is a fundamental element of Due Process that “no
person may be punished criminally save upon proof of
some specific illegal conduct.” Schad v. Arizona, 501
U.S. 624, 633 (1991). This Court has stated that
“nothing in our history suggests that the Due Process
Clause would permit a State to convict anyone under a
charge of ‘Crime’ so generic that any combination of
jury findings of embezzlement, reckless driving,
murder, burglary, tax evasion, or littering, for example,
would suffice for conviction.” Id. Indeed, Justice Scalia
explained that “[w]e would not permit, for example, an
indictment charging that the defendant assaulted
either X on Tuesday or Y on Wednesday....” Id. at 651.
See also Richardson v. United States, 526 U.S. 813, 820
(1999)(citing the Schad plurality opinion and Justice
Scalia’s hypothetical with approval).

30
Any jury would be confused as to what legal theory
was the basis for the neglect of a dependent charge.
That is, the State claimed at trial that the neglect
charge was either the failure to obtain medical help for
Janna on the date of her demise or the State also
argued that the neglect was the placing of a pillow over
the child which supposedly resulted in her death –
although the jury rejected this theory on the murder
charge. The Court of Appeals accurately noted that the
State did argue that the failure to obtain medical help
was part of the State’s neglect argument, and the Court
also noted that significant prosecutorial time was spent
on the prosecution’s argument that Mr. Fairbanks
failed to seek medical help for Janna. App.45-48. The
Court of Appeals, however, claims that the neglect
charge was limited to the pillow theory by the time the
prosecution’s closing took place, but omitted the fact
that the State, in its closing, continued to argue that
the failure to seek medical care was also the basis for
the neglect charge. In its closing, the State argued “he
didn’t do anything to seek medical care for her.” Tr.
Vol. V., p 32. It is important that only one theory was
presented to the jury at the time of trial wherein the
State admitted in its brief “[f]ailing to seek medical
assistance after the baby is already dead could not then
result in her death. Thus, in this case, the failure to
seek medical help could not have been the basis for the
neglect charge.” State’s Brief to Court of Appeals, p. 49.
Yet, the State argued throughout trial that the failure
to seek medical help was a basis for the neglect charge.
This is palpably ridiculous, and no person should linger
in prison wherein the jury may have convicted Mr.
Fairbanks on a claim the State readily admits has no
basis in law or fact.

31
In an effort to affirm this wrongful conviction, the
Court of Appeals concluded “there is no rule that
prevents the State from presenting the jury with
alternate ways to find the defendant guilty as to one
element.” App.48 (citing Baker v. State, 948 N.E.2d
1169, 1175 (Ind. 2011)). This argument was never
asserted by the State at the trial or appellate level and
the appeals court’s legal reasoning here is flat wrong.
The Baker holding applies to situations where either
alternate theory of culpability can establish an element
of the crime charged. Id. In this instance, the jury may
have wrongly convicted Mr. Fairbanks for failing to
seek medical help for a child who was already dead
which the State readily admits cannot establish a
neglect charge because “[f]ailing to seek medical
assistance after the baby is already dead could not then
result in her death.” State’s Brief to Court of Appeals,
p. 49. As a result, the Court’s holding has no legal
weight. In fact, the Court of Appeals’ reasoning that
the State was permitted to present this alternate legal
theory to find the defendant guilty only highlights the
fact that the jury may have convicted Jeffrey Fairbanks
on a legal theory that the State acknowledges is not a
crime. Due Process does not permit such a result.

32
IV.

The Indiana Neglect Statute, Which Had
Previously Been Found Unconstitutionally
Vague, Remains Inherently Vague Whereas
Petitioner’s Conviction May Rest Upon a
Criminal Theory that Falling Asleep with
his Child is Somehow a Criminal Act.

Ind. Code Ann. § 35-46-1-4 which states a “person
having the care of a dependent, whether assumed
voluntarily or because of a legal obligation, who
knowingly or intentionally: (1) places the dependent in
a situation that endangers the dependent’s life or
health” is unconstitutionally vague. Due process
principles advise that a penal statute is void for
vagueness if it does not clearly define its prohibitions.
Grayned v. City of Rockford, 408 U.S. 104, 108 (1972).
The Fifth Amendment provides that “[n]o person
shall ... be deprived of life, liberty, or property, without
due process of law.” Johnson v. United
States, __ U.S. __, 135 S. Ct. 2551, 2556 (2015). United
States Supreme Court cases clearly “establish that the
Government violates this guarantee by taking away
someone’s life, liberty, or property under a criminal law
so vague that it fails to give ordinary people fair notice
of the conduct it punishes, or so standardless that it
invites arbitrary enforcement.”
Id.; Kolender v.
Lawson, 461 U.S. 352, 357–58 (1983). “The prohibition
of vagueness in criminal statutes ‘is a well-recognized
requirement, consonant alike with ordinary notions of
fair play and the settled rules of law,” and a statute
that flouts it “violates the first essential of due
process.’” Johnson v. United States, __ U.S. __, 135
S. Ct. 2551, 2556–57 (2015)(citing Connally v. General
Constr. Co., 269 U.S. 385, 391 (1926)).

33
The prosecution charged Mr. Fairbanks with neglect
of a child resulting in death pursuant to Ind. Code Ann.
§ 35-46-1-4 which states a “person having the care of a
dependent, whether assumed voluntarily or because of
a legal obligation, who knowingly or intentionally:
(1) places the dependent in a situation that endangers
the dependent’s life or health” is guilty of criminal
neglect. The prosecution argued that sleeping fits the
statutory definition of neglect.
Specifically, the
prosecution argued: “So the child is not supervised for
hours. Just because he’s in the room -- if he’s asleep, he
can’t supervise.” Tr. Vol. V, p. 8. Clearly, the
prosecution’s argument that a parent can be prosecuted
for sleeping attempts to criminalize normal behavior.
The statute provides that the mere presence of an adult
when a minor dies results in a criminal act. This is far
too elastic of a standard for the basis of any statute in
the criminal code. Indeed, here the State argued that
Mr. Fairbanks sleeping with his child was a purported
negligent act. Such a standard would require parents
to hire a babysitter to watch an infant anytime the
parents needed to sleep. The prosecution’s argument
highlights the vague nature of the statute which would
criminalize trivial behavior which is not permitted by
law. This statute is unconstitutionally vague and as a
result Mr. Fairbanks’ conviction must be reversed.

34
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Alexandra C. Siskopoulos
Counsel of Record
Siskopoulos Law Firm, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Petitioner
July 25, 2019

